                        CLOSEOUT of CASE M 97070021


        We discovered that an NSF funded PI1 (the "subject") submitted duplicate
publications to two major journals2 and subsequently published apologies in
both journals. During our inquiry, we determined that he published at least five
sets of essentially duplicative research papers in different journals.

       After identifying the instances of duplicate publications, we deferred the
investigation to the university. In its investigation, the university's committee
categorized the subject's questioned publications into two groups: (1)
republishing in a conference proceedings, material that had previously been
published in a refereed, archival journal; and (2) publishi~gthe same material in
two separate, first-tier, archival, peer-reviewed journals. The committee
determined that the first activity is fairly common and falls within "the fringe
area of acceptable practice." They found that the second activity "goes beyond
the acceptable standards of scientific practice within [the subject's] field."
Despite this determination, the committee did not find that the actions rose the
level of misconduct in science. They interpreted the word "serious," in the
phrase "other serious deviations from acceptable practices" of NSF's definition,
to mean "having significant negative consequences" rather than "extreme."
They reasoned that the effects of duplicate publication are not "on a par w i t h
fabrication, falsification or plagiarism.

       We asked the committee to clarify its interpretation of NSF's definition of
misconduct in science, in particular, its incorporation of an element of harm. The
committee reasoned that, even without considering an element of harm, the
subject's actions did not rise to the level of misconduct in science. They viewed
his actions regarding the second group of publications as "an isolated lapse in
judgement versus a persistent or premeditated attempt to enhance one's
apparent scientific achievements." They also found that the inclusion of these
two duplicate publications would "have no impact on the perception of [the
subject's] productivity."

        Although we are concerned about the cumulative effect of duplicate
publications on the scientific record and proper reporting of credentials, we
conclude that the committee provided a thoughtful assessment of the allegation
that reflects the views of the subject's scientific community. From our review of
the literature conducted during the inquiry, we note that certain scientific fields,
such as biomedicine, have taken a more active role in implementing policies
against this practice.



  [redacted material] is a faculty member at in the Department of [redacted material]
at [redacted material].
* [redacted material].
                                     Page 1 of 2
                        CLOSEOUT of CASE M 97070021


       This investigation is closed, and no further action will be taken.

CC: IG, Integrity




Closeout                             Page 2 of 2
